         U.S. Department of
                                               Memorandum
         Transportation
         Office of the Secretary
         of Transportation
         Office of Inspector General


Subje"   INFORMATION: Notification of Audit of                     Date:     August 12, 2004
         Central Artery/Tunnel Project 2004 Finance Plan
         Federal Highway Administration
          Project
             -    Number: 04M-30 14-MOO0
                                                                Reply to

From:    Debra Ritt      ,&& &
         Assistant Inspector General for
                                                                ~ t t nof:
                                                                        .    JA-40

          Surface and Maritime Programs

         Federal Highway Administrator


         As directed by the Department of Transportation and Related Agencies
         Appropriations Act for Fiscal Year 2001, the Office of Inspector General plans
         to initiate an audit of the Massachusetts Turnpike Authority 2004 Finance Plan
         (Plan) for the Central Artery/Tunnel Project. Specifically, we will determine
         whether the Plan: (I) presents a cost estimate that is based on all known and
         reasonably expected costs, (2) identifies appropriate and available funding
         sources sufficient to meet the total estimated cost, (3) provides a project
         construction schedule that is based on all known and reasonably anticipated
         delays, and (4) discloses other issues affecting the project.

         Our audit will be conducted at the Federal Highway Administration (FHWA)
         Headquarters and FHWA Massachusetts Division Office, Central Artery
         project offices, and other organizations to be determined during the review.
         We plan to begin this audit the week of August 16, 2004, and will contact your
         audit liaison to schedule an entrance conference.

         The Program Director for this review is Sarah Batipps and the Project Manager
         is George Lavanco. If I can answer any questions or be of further assistance,
         please feel free to contact me at (202) 366-5630 or Ms. Batipps at (202) 366-
         8543.

                                                #
         cc:      Martin Gertel, M- 1
                  FHWA Liaison, HAIM- 13
